fos
I

OCKLE

2311 Douglas Street A : E-Mail Address:
Omaha, Nebraska 68102-1214 Legal Briefs

Est.1923 contact@cocklelegalbriefs.com

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No.

OWNER-OPERATOR INDEPENDENT
DRIVERS ASSOCIATION, INC., et al.,
Petitioners,
¥,

ERIC HOLCOMB,
GOVERNOR OF INDIANA, et al.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme
Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point
for the footnotes, and this brief contains 8671 words, excluding the parts that are exempted by
Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 7th day of September, 2021.
lam duly authorized under the laws of the State of Nebraska to administer oaths.

 

‘My Comm. Exp. September 5, 2023
Notary Public Affiant 40940

rte] Kerse: Q.Llaoa? Ondeawh hls
